                                             SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               OFFICE OF INSPECTIONS

                               Inspection of Embassy Stockholm, Sweden




                               Report Number ISP-I-11-30A, March 2011
Inspector
General
Office of




                                                                      IMPORTANT NOTICE
                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                             SENSITIVE BUT UNCLASSIFIED

  SENSITIVE BUT UNCLASSIFIED





   PURPOSE, SCOPE AND METHODOLOGY 

          OF THE INSPECTION



This inspection was conducted in accordance with the Quality
Standards for Inspections, as issued by the President’s Council
on Integrity and Efficiency, and the Inspector’s Handbook,
as issued by the Office of Inspector General for the U.S.
Department of State (Department) and the Broadcasting Board
of Governors (BBG).

Purpose
The Office of Inspections provides the Secretary of State, the Chairman of
the BBG, and Congress with systematic and independent evaluations of the
operations of the Department and the BBG. Inspections cover three broad
areas, consistent with Section 209 of the Foreign Service Act of 1980:
 • 	 Policy Implementation: whether policy goals and objectives are being
     effectively achieved; whether U.S. interests are being accurately
     and effectively represented; and whether all elements of an office or
     mission are being adequately coordinated.
 • 	 Resource Management: whether resources are being used and 

     managed with maximum efficiency, effectiveness, and economy and 

     whether financial transactions and accounts are properly conducted,

     maintained, and reported.

 • 	 Management Controls: whether the administration of activities and
     operations meets the requirements of applicable laws and regulations;
     whether internal management controls have been instituted to ensure
     quality of performance and reduce the likelihood of mismanagement;
     whether instance of fraud, waste, or abuse exist; and whether adequate
     steps for detection, correction, and prevention have been taken.

Methodology
In conducting this inspection, the inspectors: reviewed pertinent
records; as appropriate, circulated, reviewed, and compiled the results
of survey instruments; conducted on-site interviews; and reviewed the
substance of the report and its findings and recommendations with
offices, individuals, and organizations by this review.




  SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




               SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED



                                    TABLE OF CONTENTS


KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

  Contact Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

POLICY AND PROGRAM IMPLEMENTATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

  Reporting, Analysis, and Advocacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

  Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

  Consular Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           25

  Management Operations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                26

  Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              27

  Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           27

  General Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        28

  Best Practice: Local Employee Orientation Program . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             28

  Housing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     29

  Underutilized Real Property – Oxenstiernsgatan Apartments . . . . . . . . . . . . . . . . . . . . .                                   30

  Excess Real Property – Bromma House . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         30

  Facilities Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            31

  Preventive Maintenance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              32

  Managing Maintenance and Repair Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          33

  Information Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                33

  Information Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          34

QUALITY OF LIFE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             37

  Health Unit. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      37

  Community Liaison Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                37

  Schools . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   38

  U.S. Embassy Community Association . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        38

  Equal Employment Opportunity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     39

MANAGEMENT CONTROLS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            41

 Motor Vehicle Record Keeping . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   41

 Official Vehicle Policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            41

 Procurement and Contracting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    42

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51





                          OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011                                  iv


                       SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED





v   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




KEY JUDGMENTS


•   The development of the Mission Strategic and Resource Plan at Embassy
    Stockholm is a highly interactive process that gives staff a stake in the embassy’s
    progress toward its strategic goals. Its use as a regular feature of country team and
    working group meetings keeps progress toward goals firmly on track and allows
    for timely adjustment to developments.
• 	 Ambitious embassy efforts to reach out to Swedish society have galvanized
    embassy staff. The embassy needs to make a clear assessment of the trade-offs
    involved in these activities. It also needs to be willing to make adjustments to
    maximize the effectiveness of outreach activities and to minimize their displace­
    ment of other activities that advance broad U.S. interests.
• 	 The embassy’s considerable efforts to reduce energy consumption and green­
    house gas emissions have made it a model for the Department’s “green embassy”
    initiatives.

All findings and recommendations in this report are based on conditions observed
during the on-site review and the standards and policies then in effect. The report
does not comment at length on areas where the Office of Inspector General (OIG)
team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between September 1 and 29, 2010,
and in Stockholm, Sweden, between October 15 and November 1, 2010. (b) (6)




                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   1


               SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED





2   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


    SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED




CONTEXT


Sweden is the third largest country in Western Europe; with a population of about
9.4 million inhabitants—most of whom are concentrated in the urban areas of the
South—it is also one of its most sparsely
populated. Although a large source of
emigration before World War II, the largest
cohort of which went to North America,
Sweden has since experienced significant
inflows of population, primarily from other
Scandinavian countries. In recent years,
political upheavals elsewhere have combined
with an open refugee and residency regime to
swell the ranks of other nationalities. Today,
some 13.4 percent of those people residing in
Sweden were born abroad, nearly one-third of
whom are from Muslim-majority countries.
This influx has had its political effects, as
borne out in the elections of September 2010,
which returned a center-right coalition to
power for the first time, and, for the first
time as well, gave representation to the nativ­
ist Sweden Democrats.

The 2009 Human Development Report
ranks Sweden at seventh on the human
development index, primarily on the strength
of life expectancy (80.8 years), per capita
income (nearly $37,000 on a purchas­           Map of Stockholm, Sweden and its
ing power parity basis), and broad school      surrounding region.
attendance. With a gross domestic product      Source: U.S. Government
growth rate of some 4.6 percent forecast for
2010, Sweden’s economy has displayed vigor emerging from the global downturn.
According to the Global Competitiveness Report, Sweden recently displaced the
United States as the world’s second most competitive economy.

Sweden’s foreign policy touchstone has evolved from neutrality to military nonalign­
ment, as Sweden has joined the European Union and taken on increasing respon­
sibility for European security generally. Today, though not a member of the North
Atlantic Treaty Organization, Sweden has been active in its Partnership for Peace,
cooperating closely with the United States on security undertakings, including


                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   3


              SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    deployment to Afghanistan (where it heads a provincial reconstruction team in
    Mazar-i-Sharif), purchases of military equipment, and collaboration on counterter­
    rorism. Foreign policy priorities feature arms control, nuclear nonproliferation, and
    fostering democracy in developing countries, particularly in key African nations.

    There are 14 million Americans of Swedish heritage in the United States, many
    of whom remain in active contact with their relatives in Sweden. There are several
    university exchange programs between the two countries, and a recent series of events
    have included U.S. governors and mayors visiting Sweden to promote trade opportu­
    nities or exchange green energy ideas.

    Embassy employment has been stable for the past several years, although Centers
    for Disease Control and Prevention and Customs and Border Patrol programs have
    added to the mix. The Department of Agriculture transferred its American position
    to Norway in 2006. Department staffing has remained nearly static, with only a
    few small additions during the past 10 years and no additional positions anticipated
    during the next five. The new Ambassador understands that stable staffing can lead
    to established work routines that stifle innovation. His open and inclusive approach
    to planning has stimulated creative thinking and created embassy staff support for
    new programs and ways of doing business. Overall, the embassy has resources to
    support its key initiatives, though funds to maintain government-owned properties
    are at a lower than optimal level.




4                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




EXECUTIVE DIRECTION


Since arriving in August 2009, the Ambassador has concentrated on carrying out
President Obama’s directives focused on our global challenges. He has looked for
opportunities to deepen U.S. engagement in Sweden. He brought the entire mission
team together in a coordinated effort to develop and carry out the goals stated in the
Mission Strategic and Resource Plan (MSRP) in an exemplary manner.

Earning Swedish support for U.S. foreign policy priorities is the major mission goal.
This goal is reflected in the MSRP through targeted goals which include strengthen­
ing U.S.-Swedish military ties, providing counterterrorism assistance, increasing
U.S. exports, and widening the focus of the pre-existing green energy partnership
to encompass other aspects of sustainable development. The Ambassador seeks to
focus the embassy on sustainable development—a broader agenda from that of his
predecessor on alternative energy. He seeks thereby to advance efforts to boost trade,
improve U.S.-Swedish relations, and enhance the reputation of the United States as a
promoter of clean energy.

The new generation of Swedish citizens is too young to remember the United States
as the liberator of Europe in World War II or as the protector of Europe during the
Cold War. They remember instead the Kyoto Protocol and U.S. intervention in
Iraq. They are focused on climate change, sustainable development, and other global
issues, and they communicate in ways not dreamed of only a few years ago. The
Ambassador feels that engaging this group and building their trust is an independent
strategic goal. One avenue of doing so is by promoting the Global Network Initiative
—a private sector effort promoting Internet freedom, for which the Secretary voiced
support in January 2010, and to which Swedish Foreign Minister Karl Bildt gave
early and energetic support. It touches on a variety of mission priorities, from cyber
security to human rights and trade, and can be instrumental in advancing U.S.
priorities in these areas.

The Ambassador has adopted strategic planning, as embodied in the MSRP process,
as the embassy’s touchstone for virtually all of its activity. He uses his weekly senior
staff meeting, weekly country team meetings, and targeted meetings to ensure that
the country team’s efforts are directed towards meeting the goals of the MSRP. In
addition, he has town hall meetings and expanded country teams that include local
employees in the process, achieving an understanding throughout the mission of
key goals and priorities. This approach also has fostered a high degree of collabora­
tion among Department of State (Department) and non-Department entities at the
embassy. The heads of agencies reported that they play an active role in developing
and implementing the MSRP, and they share their agency’s reporting and analysis
plans with senior management.

                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   5


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    The development of the embassy’s strategic vision was a textbook case of consensus-
    building, and as such, one that found particular resonance among the embassy’s local
    employees. The Ambassador led a series of meeting among section heads to discuss
    goals, coordinating within their sections and, as appropriate, with other sections
    involved in joint efforts. The Ambassador directed the formation of working groups
    on each of these goals, to ensure embassy-wide coordination and to review progress.
    The Ambassador then worked with the section heads to develop a one-page summary
    of the embassy’s key goals to share with each member of the mission, culminating
    with a town hall meeting to encourage everyone at the mission to embrace the MSRP
    and understand their potential role in it.

    The one-page summary encompasses the seven strategic goals set forth in the
    MSRP, plus an eighth objective, “diplomatic platform for engagement,” which
    draws the seven goals together and treats the contributions of consular, security, and
    management functions. To follow up and maintain progress toward goals, country
    team meetings (open on alternative weeks to all embassy staff and among cleared
    Americans) take the strategic goals as their point of departure and discuss develop­
    ments in terms of these goals. As a result, every employee, regardless of level, has a
    clear sense of his or her role in advancing the mission’s priorities. At the same time
    that it has focused staff effort, this comprehensive approach to strategic planning has
    vastly improved morale, fostered cooperation among sections, and raised effectiveness
    of the embassy.

    The offices of both the Defense attaché and the Foreign Commercial Service are
    located in the embassy. The Centers for Disease Control and Prevention offices are
    located at a separate site. All the agencies work together, cooperatively and effectively.

    The Ambassador envisages an ambitious series of events to engage Swedish society in
    the American experience. These have ranged in scale from weekly lunches for small
    groups of contacts and monthly, themed cocktails at the Ambassador’s residence, to
    a highly orchestrated “road show.” The latter effort aims to make all employees as
    mobile, connected, and effective as possible through a monthly series of day-long
    activities—complete with town hall meetings and breakout sessions—in medium-
    sized urban areas that normally have little contact with the embassy. This event has
    been an inspiration for embassy employees. Despite demands on their time (including
    daily countdown meetings and advance visits to the site), embassy staff have thrown
    themselves into the planning and look forward to a successful, high-profile event.
    Other plans to extend the diplomatic platform include hosting online streaming of
    a global Technology Entertainment and Design conference for Nobel laureates, and
    hosting an ongoing “living laboratory” on the embassy grounds, to showcase clean
    energy technologies.




6                    OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Participants in the road show activities find them interesting and satisfying, although
many admit that participating in them takes them away from their core responsibili­
ties. The OIG team had some concerns regarding the balanced use of scarce embassy
resources.

Informal Recommendation 1: Embassy Stockholm should, after the first road
show, conduct a cost-benefit review to assess whether and to what degree this activity
imposed trade-offs with advancing other, broad national interests; to consider what
tasking changes would take maximum advantage of the embassy’s own expertise and
capacities; and to assess other means of maximizing the impact of subsequent events.

The relationship between the Ambassador and the former deputy chief of mission
(DCM) was strained. The last 3 months of the former DCM’s time at post were
spent completing well defined tasks (such as employee evaluation reports) that
minimized his contact with embassy staff. During this time, the Ambassador and
economic counselor shouldered the responsibility for managing the substantive
functions of the mission, until the current DCM arrived in May 2010. The new
DCM has assumed the day-to-day management of the mission, with responsibility
for directing operation of the mission’s sections. This has obviated the need for the
Ambassador to be involved in the day-to-day, internal processes of the individual
sections and freed him to assume a broader view that enables him to play a greater
role in representing the public face of the embassy. Morale is very good throughout
the mission. Staff commented on the Ambassador’s open, friendly, and outgoing
nature. It is his habit to walk around the mission and engage the staff and officers
during these walks. Mission personnel feel comfortable around him, and he encour­
ages them to express their interests and concerns.

Although the Ambassador took the Department’s course for new chiefs of mission,
he feels that it did not adequately prepare him for the work he faced upon his arrival
at post. Nonetheless, he has been able to maintain an excellent working relationship
with all levels of the Government of Sweden.




CONTACT MANAGEMENT
Nearly all sections manage their contacts through the Contact 7 software, but the
public affairs section (PAS) is dissatisfied with its capabilities. Other sections, nota­
bly the front office and the political section, maintain their contacts in Microsoft
Outlook, which is an even less robust and more limited system. The OIG’s 2003
inspection report informally recommended that the embassy convert its entire
contact management database to the Goldmine software, which at the time had
more capabilities and flexibility than the Contact 7 software the main database was


                 OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   7


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    using. The report noted that the Information Resource Center was in the process of
    converting to Goldmine. However after the 2003 inspection, efforts to widen PAS’s
    experimental use of Goldmine had petered out, because no one had pushed hard for
    its implementation embassy-wide.

    At the time of the current inspection, the embassy database was still using Contact
    7, but the staff was not taking advantage of its full capabilities. Individual records in
    the database contain very little information beyond basic directory-type information
    and the automatically generated lists of events to which the person has been invited.
    The embassy was not entering information about contacts’ interests, institutions,
    and background. At this point, with Contact 7 firmly in place, the embassy’s best
    way forward would be to push ahead with a full implementation of that database,
    perhaps upgrading the software to Contact 8. The embassy needs to take a systematic
    approach, and the project will require strong leadership with a clear mandate from
    the front office. Embassy staff will need to become more fully familiar with all the
    capabilities of the system by having access to it from their desktops. This access
    should be read-only to ensure the integrity of the database.


        RECOMMENDATION 1: Embassy Stockholm should systematically
        improve its use of the Contact 7 software by appointing an individual to
        take charge of the database; investigating whether to upgrade the software
        to Contact 8; consulting with the program’s creator in Frankfurt about the
        database’s capabilities; involving a variety of staff in designing the fields; and
        providing staff training on database use. (Action: Embassy Stockholm)




        RECOMMENDATION 2: Embassy Stockholm should install access to the
        database on most staff work stations, although the ability to make changes
        to records should remain limited to ensure consistency. (Action: Embassy
        Stockholm)




8                    OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



POLICY AND PROGRAM
IMPLEMENTATION


REPORTING, ANALYSIS, AND ADVOCACY
The embassy has separate economic and political sections. Washington end-users
universally praised their reporting and analysis, particularly on elections, Sweden’s
Afghan deployment, and regional efforts. Environment, science, technology and
health (ESTH) work is strong. Reporting in both sections makes appropriate use of
reporting channels: the section uses emails to report on time-critical developments,
followed up by cables (which are the communication vehicle of choice). Both sections
understand and make appropriate use of record emails.

The sections face considerable capacity challenges and have cobbled together staff­
ing to deal with their heavy workloads. The political section relies on a professional
associate for its core work on the Muslim community and Internet freedom, and
employs an intern to support the embassy’s road show. The economic section also
uses its interns to assemble the section’s required reporting, and calls on them to do
spot reporting as well. The OIG team’s assessment is that both sections are working
at the limit of their capacities.

The July 2003 inspection report noted that the sections met daily to coordinate
their activities, and that in general, communication between the sections was “solid.”
The current OIG team noted a fall-off in the frequency of these formal coordinat­
ing sessions, and the staff almost unanimously agreed that coordination difficulties
remain. Responsibilities overlap with regard to Iran sanctions, dual use technology,
terrorist financing, and Internet issues. There are also a number of issues bearing
on the equities of the Department of Homeland Security (which is not resident in
Stockholm) that do not find natural “homes” in the sections and need clear delinea­
tion of responsibility.

The two sections could usefully share a number of overlapping support functions,
including démarche tracking, contact management, visitor support, and records
disposition. In view of the potential efficiencies, particularly given the capacity chal­
lenges both sections face, the OIG team concluded that the embassy should combine
these two sections into a single, political-economic section. It should take care,
however, to maintain the staffing balance between the two cones, to avoid a section
overly weighted toward one mode of substantive work.

                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   9


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




         RECOMMENDATION 3: Embassy Stockholm, in coordination with
         the Bureau of European and Eurasian Affairs and the Bureau of Human
         Resources, should combine the economic and political sections, while main­
         taining the current staffing balance between economic- and political-coned
         officers in the combined section. (Action: Embassy Stockholm, in coordina­
         tion with EUR and DGHR)



     Political Section
     The political section has the lead on some of the embassy’s highest priorities. It
     has closely followed the Swedish debate on deployment in Afghanistan and has a
     sustained dialog with ministries and legislatures regarding the legal underpinnings of
     that operation. It has dedicated substantial effort to Sweden’s demographics, integra­
     tion, and policies toward its Muslim minorities—producing first a series of analyses
     and then building on these analyses with outreach that it coordinates with PAS.
     It kept Washington informed in the run-up to the September 2010 elections and
     produced a series of analyses on the outcome, which put the strong showing of the
     right in context. The section also has followed the U.S. Government’s counterterror­
     ism effort with a close reading of new Swedish legislation, informed by contacts with
     ministry and legislative authorities alike. It participates in the embassy’s counterintel­
     ligence working group and a recently formed counterterrorism working group. Senior
     management is considering the formation of a law enforcement working group to
     include the section as well.

     The section coordinates with the front office, PAS, the economic section, and the
     office of the Defense attaché. There is extensive communication with other Nordic
     embassies, notably Oslo and Helsinki, on issues that benefit from efforts across a
     broader front. These include Nordic defense cooperation, through which Norway
     and Sweden seek economies of scale in joint efforts on missions, military base
     support, and procurement. The embassy also is working on Internet freedom issues
     with Embassy Helsinki, in an effort to get support for the U.S. position on these
     issues from some of the world’s leading technology companies. The OIG team found
     this coordination appropriate and effective.

     The section is fortunate to employ local specialists with extensive contacts and high
     skills in both spoken and written English. It has empowered these local employees to
     undertake a substantial amount of the political section workload, including produc­
     tion of mandated and required reporting and a considerable amount of spot reporting
     and analysis.




10                    OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



As mentioned above, a professional associate shares the section’s extensive reporting
and outreach workload. It is likely that the volume of reporting will decrease once her
tour concludes, and the work on Muslim outreach and Internet freedom will move to
other officers. This shift will coincide with a large turnover in the section, including
both the counselor and deputy positions.


Economic Section
Though small, the economic section handles a heavy workload, notably serving
as the lead on the embassy’s signature activity, SAGA. This effort facilitates broad
cooperation between Americans and Swedes in the areas of renewable and alternative
energy, clean technology, and sustainable growth. Along with pursuing its goals to
double exports by 2015 and improve Swedish efforts against Internet piracy, SAGA
has served as an organizing principle for the economic section’s work. In fact, SAGA
commands most of the section’s time and effort, making its work heavily ESTH-
oriented and bilateral in nature.

The economic counselor is an experienced senior officer who has filled in as needed
as acting DCM and chargé d’affaires. Embassy Stockholm agreed to cede the deputy
position to an entry-level officer (ELO) provided that officer had good Department
experience. The embassy was fortunate in being able to staff the position with an
ELO with 6 years of civil service in the Department. The counselor’s experience
has enabled the deputy to be successful in her position. The OIG team concurred
with the counselor’s view that the incumbent’s eventual replacement will need to be
an experienced officer—whether ELO or not—in order to maintain the quality of
economic work.

The section has one locally employed (LE) staff specialist, who fills in on many
fronts, notably on drafting much of the section’s reporting. She too spends much
of her time on ESTH and intellectual property rights issues. The economic section
handles the lion’s share of the embassy’s visitors, and as a consequence much of this
employee’s time is taken up with arranging schedules and logistics for them. A July
2010 rightsizing analysis indicates the need for an additional LE staff member for
the section. The OIG team concurs, and made an informal recommendation on this
matter.

Informal Recommendation 2: Embassy Stockholm should request resources for an
additional local employee position in its Mission Strategic and Resource Plan.

The section employs a cleared American citizen on a local hire basis as a dedicated
office management specialist (OMS). She has taken the initiative to develop a
number of products that are of use to the embassy as a whole (such as a démarche
tracker and an official visitors log), but she lacks the institutional background and
training that form the basis of a Department OMS’s expertise. Furthermore, the


                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   11


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED


     staffing of the political section with an experienced OMS and the need for both
     sections to comply with 5 FAM 400 and 5 FAH-4 on records management provides
     an opportunity for collaboration and knowledge transfer between the sections.

     Informal Recommendation 3: Embassy Stockholm should provide appropriate
     training for the office management specialist in the economic section.


        RECOMMENDATION 4: Embassy Stockholm should require that the
        political and economic sections collaborate on bringing their files into compli­
        ance with Department regulations on records management. (Action: Embassy
        Stockholm)




     PUBLIC DIPLOMACY
     With a focus on mission goals, the two-officer PAS has directed its public outreach
     efforts on improving the image of Americans and climate change/clean technology,
     an issue that has resonance in Sweden. The section has used one of its seven LE staff
     slots to create an unusual position, in which the employee focuses on green energy
     and the environment and uses the full range of public diplomacy tools to address
     it. The public affairs officer formally supervises the employee, who also receives
     direction from the economics counselor. During the inspection, PAS was nearly
     fully occupied with a major initiative this employee had spearheaded – bringing 11
     American mayors to the European Green Capital Conference in Stockholm to talk
     about their efforts to make their communities “green.” The audience was comprised
     of people who generally had viewed the United States as an environmental laggard.

     The section also takes advantage of the Ambassador’s public diplomacy skills,
     supporting him on his travels and arranging public outreach events. To aid in strate­
     gic planning, PAS has a public diplomacy implementation plan that spells out how it
     will use various programs to carry out MSRP goals.


     Information Outreach
     Even in a highly wired society like Sweden, in-person outreach can be very effective
     and appreciated. In addition to its U.S. speaker program, PAS runs its own embassy
     speakers program, primarily in schools (about 12 schools a year). However, only a
     few embassy staff members volunteer for speaking engagements. In early 2010, PAS
     sent an embassy-wide email seeking volunteers, but received little response. Speakers


12                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



are particularly welcome outside of Stockholm, and PAS could easily find venues for
presentations, but officers who are planning travel to the provinces rarely give PAS
advance notice, so the section does not have time to set up speaking engagements.
This is a missed opportunity, particularly for newer officers who could use the
chance to hone their public speaking skills. PAS is planning to develop a tool kit to
help speakers prepare effective school presentations, but strong front office attention
and encouragement would help to encourage more widespread participation.


    RECOMMENDATION 5: Embassy Stockholm should develop and imple­
    ment a plan to broaden participation in the embassy speaker program and
    encourage staff members to incorporate speaking events in their official travel.
    (Action: Embassy Stockholm)


Embassy sections and agencies recognize the leading role that PAS plays in press
matters and normally refer press questions and media matters to it. It is a standard
practice to have an embassy media policy that establishes ground rules and encour­
ages appropriate interaction with the press. Embassy Stockholm does not have such a
policy.

Informal Recommendation 4: Embassy Stockholm should develop a formal media
policy and circulate it periodically to embassy staff.

At the time of the inspection, the information management (IM) section had recently
unveiled an upgraded, internal SharePoint site to improve information sharing within
the embassy. However, PAS is not yet taking advantage of this SharePoint site.

Informal Recommendation 5: Embassy Stockholm should include on its SharePoint
site information from the public affairs section, including daily news summaries,
press guidance, outreach presentations, and other briefing materials.

In order to engage a younger and broader audience, PAS has moved heavily into
social media, with a Facebook page, YouTube channel, Flickr photo gallery, Twitter
feed, Ambassador’s blog, and SAGA blog. PAS started the Facebook page in August
2009, and now has a respectable 1,400 fans and some interactivity in the form of
questions from them. The YouTube and Flickr sites primarily serve as repositories for
content that PAS distributes to the media and the public and do not receive many
views (generally a few dozen to a few hundred for most items). The Information
Resource Center (IRC) staff frequently updates the social media sites, but the staff
updates the embassy’s home page far less frequently. For example, on October 25,
the social media sites had news of the just-completed European Green Capital
Conference, while the “Embassy news from Sweden” at the top of the embassy Web
site led with a report on a September 13-14 U.S. speaker, as well as other older items.


                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   13


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     These sites would benefit from more and broader local content. The PAS staff
     members write the articles for the embassy Web site and social media site, but they
     have had a hard time getting content from other embassy sections and agencies. In
     addition, the embassy’s home page does not link to the Facebook, YouTube, or Flickr
     sites, and none of the sites cross-link to each other.

     Informal Recommendation 6: Embassy Stockholm should direct all sections and
     agencies to contribute items to the embassy Web site and social media sites and cross­
     link the sites among themselves.

     In June 2010, the Department issued a new subsection of the Foreign Affairs Manual
     dealing with social media (5 FAM 790). At the start of the inspection, the embassy’s
     social media sites did not meet some of the requirements of that subsection, such as
     the regulations requiring terms of use statements (5 FAM 793.4 b.), privacy state­
     ments (5 FAM 795.1 a.-i.), and compliance with Section 508 rules regarding acces­
     sibility for the disabled (5 FAM 794 a. (7)). The OIG team discussed these new rules
     with embassy staff, and they began to make changes immediately.


        RECOMMENDATION 6: Embassy Stockholm should bring its social media
        sites into compliance with the new Foreign Affairs manual subsection on
        social media. (Action: Embassy Stockholm)



     Education and Exchanges
     The recent elections gave Embassy Stockholm a chance to highlight its achievements
     in selecting participants for the International Visitor Leadership Program (IVLP) and
     Voluntary Visitor Program (VVP). The Swedish Parliament has 15 newly established
     committees, and IVLP alumni hold key positions in 10 of them. In all, 22 parlia­
     mentarians are alumni of the embassy’s IVLP or VVP exchanges. The prime minis­
     ter, foreign minister, defense minister, and other ministers are IVLP alumni, as well.

     However, like many other European posts, Embassy Stockholm has seen its number
     of exchange slots decline due to budget cuts and the movement of resources to other
     parts of the world. For FY 2010, the embassy had eight IVLP slots (which it was able
     to increase to 10 by taking advantage of Department incentives). It has created addi­
     tional exchange opportunities for Swedes by taking advantage of the VVP, sending
     34 voluntary visitors to the United States in FY 2010. Virtually all VVP participants
     were self-funded, and in cases where the Department’s Voluntary Visitors Division
     could not accommodate Swedish visitors, PAS made direct grants to U.S. program
     agencies to arrange programs for Swedish individuals or groups. For the IVLP, the



14                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                   SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



section received ample, strong nominations from a wide variety of embassy sections
and agencies.

Officers in other sections may not be making full use of the program’s potential. The
majority of the VVP nominees contact PAS directly, having heard about the program
only by word of mouth. The section normally invites the relevant sections to the pre­
departure briefings and post-return debriefings of participants, but few attend. These
sections are missing the opportunity to use these programs to cement a relationship
with the contact. Thus, VVP participants form a connection with PAS, instead of
with the substantively relevant officer, which is of less benefit to the mission.


   RECOMMENDATION 7: Embassy Stockholm should require that nomi­
   nating officers or other relevant section staff attend the briefings and debrief­
   ings for participants in the International Visitor Leadership Program and the
   Voluntary Visitor Program. (Action: Embassy Stockholm)




   RECOMMENDATION 8: Embassy Stockholm should develop and imple­
   ment a plan to encourage more widespread nominations for the Voluntary
   Visitor Program. (Action: Embassy Stockholm)


Most, but not all, of the exchange programs alumni are in the Contact 7 database.
Each exchange program participant represents a significant investment of program
funds, but the database entries do not indicate whether that contact has participated
in a U.S. Government-sponsored exchange, and if so, what type and when. It is
possible to add such fields to the database. PAS keeps separate lists of IVLP and
VVP alumni and could request complete lists of Fulbright alumni from the Fulbright
Commission.


   RECOMMENDATION 9: Embassy Stockholm should create the appropri­
   ate fields in its Contact 7 database and use these fields to record informa­
   tion on all exchange program alumni regarding their participation in U.S.
   Government exchange programs. (Action: Embassy Stockholm)


One of the goals of the two-person IRC is to increase the amount of targeted infor­
mation outreach it is conducting. Currently, the IRC primarily uses mailing lists
in Outlook for such outreach, and PAS would like to have a more robust contact


                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   15


              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     management system for electronic outreach. The section acknowledges that using
     a different database than the rest of the embassy would not be wise. In conjunction
     with the wider embassy upgrade (mentioned in Recommendation 1), PAS could
     make better use of the Contact 7 software, which has greater capabilities for record­
     ing and sorting individuals’ interests than what PAS currently uses..

     Informal Recommendation 7: Embassy Stockholm should include interests and
     other public diplomacy information in the Contact 7 database to make it more useful
     for information outreach.


     Administrative and Personnel Issues
     As public diplomacy programs and priorities have evolved and PAS staffing has
     changed, work duties within the section have become imbalanced. The administra­
     tive/grants assistant position would benefit from additional responsibilities, as would
     the position of the IRC deputy, who also serves as Web master and outreach assistant.

     Informal Recommendation 8: Embassy Stockholm should look at the position
     descriptions of the Information Resource Center assistant/Web master and the
     administrative/grants assistant with a view towards giving these staff members addi­
     tional responsibilities.

     Examination of a sampling of the PAS grants files showed that current files are in
     good order, and PAS is using the proper forms and following grants regulations. The
     files of recently expired grants generally contained program and financial reports and
     proper close-out records. The files showed a couple of minor documentation issues,
     on which the OIG team counseled the staff.

     Although no LE staff said that they had inadequate training for their jobs, PAS does
     not have a record of who has received which training and when it occurred. For
     future planning purposes, especially as the American officers change periodically, it
     would be useful to have a spreadsheet showing this information.

     Informal Recommendation 9: Embassy Stockholm should develop a spreadsheet to
     record staff training in the public affairs section.




16                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



CONSULAR OPERATIONS

Sweden is home to a diverse population of third country nationals and an estimated
30,000 American citizens. These, plus applicants for non-tourist visas, make up the
bulk of the embassy’s clientele for consular services. Since most Swedish passport
holders take advantage of the visa waiver program for tourist and business travel, the
embassy’s visa workload consists of the more complex cases of student, au pair, and
work-related applications, as well as third country nationals, including applicants
with questionable documents or identities. American citizens services are focused on
passports, reports of birth, and an occasional arrest, repatriation, welfare, or death
case.

Staffing
With three American officers, a consular associate, and 11 LE staff members, the
consular section appears adequately staffed. However, because the embassy must
follow Swedish law and practice concerning leave policies for local employees, the
section is often stretched to cover absences. More careful management of the leave
and appointment schedule would help. However, backlogs and overtime are often
unavoidable, due to unexpected and extended absences for sick or maternity leave and
the need to grant each LE staff member a lengthy summer vacation (during the busi­
est time for the consular section). Given these circumstances, the section frequently
needs temporary local employee staff assistance.

Informal Recommendation 10: Embassy Stockholm should engage local staff
in planning their vacation leave well in advance of the summer season to ensure
adequate coverage for the consular section.

Morale in the section is good. The problems that surfaced a few years ago which
caused serious morale problems appear to be behind them. Visits by the consular
management assistance team and regional consular officer, along with a change in
section leadership, appear to have resolved most of the issues. A more collegial atmo­
sphere is evident, and most of the staff commented on the good team work in the
section.


Leadership
The consul brings a wealth of experience and knowledge to the American citizens
services section in particular, and pitches in when needed on the nonimmigrant visa
(NIV) line. The NIV and immigrant visa (IV) officers are effective and efficient.
Veteran local employees commented that these officers are among the best they have
seen in a long series of ELOs. The local staff is customer-oriented, and several have
many years of experience and valuable contacts. However, because of two impending



                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   17


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     retirements and the leave issues described above, cross training to provide better
     backup and extend the experience of the local staff would be helpful.

     Informal Recommendation 11: Embassy Stockholm should survey the training and
     skills of consular locally employed staff and support cross training to ensure the flex­
     ibility needed when there are gaps or workload demands in one of the units.

     The section chief holds meetings on an as-needed basis with the front office and
     within the consular section as a whole. The NIV unit schedules regular weekly
     meetings. While communications seem to work well, several employees believe
     more regular meetings of all staff would be beneficial, provided there is a planned
     agenda and a focus on relevant and current issues. This suggestion was one of the key
     recommendations in both the Consular Management Assistance Team report and
     the regional consular officer report, following their respective visits, and implement­
     ing it has helped resolve some of the issues that had led to earlier morale problems.
     The consul also should meet regularly with the deputy chief of mission to keep him
     apprised of issues of concern to the section.

     Informal Recommendation 12: Embassy Stockholm should direct the consular
     section to hold regularly scheduled meetings.

     Informal Recommendation 13: Embassy Stockholm should establish a regular
     schedule of meetings between the consular chief and the deputy chief of mission.

     The consular chief does not have a good grasp of his International Cooperative
     Administrative Support Services (ICASS) role. Under guidance from the Bureau
     of Consular Affairs (CA), and as outlined in 09 State 99062 and on the CA Web
     intranet site, the consular chief should be active in ICASS. The ICASS council for
     Embassy Stockholm has not met since April 2010, and another meeting should occur
     soon. In preparation for his role in ICASS, the consular chief should adhere to CA
     guidance regarding his involvement in the ICASS process and seek ICASS training
     when possible.

     Informal Recommendation 14: Embassy Stockholm should require that the
     consular chief take on an appropriate role to fulfill his duties with regard to
     International Cooperative Administrative Support Services.


     Language Training
     All three consular positions are language designated, and two of the officers (includ­
     ing the consular chief) had the full 6 months of Swedish language training at the
     Foreign Service Institute prior to coming to post. The consular chief, who is also the
     American citizens services officer, neither uses nor needs Swedish for his work, since
     his clientele are primarily English-speaking American citizens, permanent resident


18                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



aliens, or Swedes who have American citizen children. His interactions with Swedish
authorities usually are conducted in English, and his duties as chief of section do not
require Swedish. According to 13 FAM 221, only those positions for which language
proficiency is essential should be language designated. The visa interviewing officers
believe that knowledge of Swedish is useful when interviewing applicants, such
as third country nationals who may speak better Swedish than English or older
Swedes from rural areas whose English may be limited. However, English has been
compulsory in Swedish schools for more than 50 years, and almost all visa applicants
who have been educated in Sweden speak good or even excellent English. In the few
cases where interpretation is required, any of the LE staff can assist. In 2009, only 3
percent of the total NIV cases required an interpreter.


    RECOMMENDATION 10: Embassy Stockholm should notify the
    Department that language training is not essential for position number
    30-032004 and request that it not be language designated. (Action: Embassy
    Stockholm)



Physical Space
The consular section office space is sufficient for the current workload, but its
configuration is poor. Officers generally have good line of sight over their respective
units, but the workspace and interview windows are in the form of a large “U,” with
the waiting room in the middle where both visa and American clients wait together
for assistance.

Visa applicants apply online for appointments, which minimizes the waiting line
outside the embassy. There is no shelter, however, and people who are waiting are
exposed to the elements. The embassy has attempted to address this problem by
handling the visa appointment process carefully, and by considering construction of
a sheltered area as part of a future project. However, it must first overcome Swedish
objections to building an addition onto the exterior of the chancery. In the interim,
the embassy has a supply of umbrellas available for loan to the waiting public during
inclement weather.

The failure of the air conditioning system on the sunny side of the building is a
source of discomfort and irritation during the summer, and attempts to rectify the
problem with the existing system have been unsuccessful. While the waiting room
has adequate ventilation, the office area in the American citizens services section does
not.




                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   19


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Informal Recommendation 15: Embassy Stockholm should install air condition­
     ing in the consular section and ensure that it has good ventilation before the next
     summer season.

     Almost all staff members commented on the lack of privacy in the waiting room.
     American citizens who have sensitive issues must discuss their cases at a window
     within earshot of others. The local antifraud employee must conduct interviews at
     the visa window, which limits his effectiveness. DNA testing for immigrant visa cases
     has to be scheduled at a time when no one else is in the waiting room. The consular
     staff has raised concerns about this situation and proposed construction of a privacy
     booth, but little has been done. The embassy should make this project a priority.


        RECOMMENDATION 11: Embassy Stockholm should propose, and
        the Bureau of Overseas Buildings Operations should approve and fund,
        the construction of a privacy booth in the consular waiting room. (Action:
        Embassy Stockholm, in coordination with OBO)



     Public Inquiries
     The embassy encourages the use of email for inquiries from the public. The
     embassy’s Web site provides extensive guidance to seekers of visas and other consular
     services. The section also has set aside 1 hour per day, 4 days a week, during which
     the public may call in with inquiries. In the summer, the volume of these calls strains
     the embassy’s capacity to respond. Many callers to the consular section and other
     elements of the embassy have complained of their inability to get through. Recently,
     the embassy tried a new approach. One consular staff member answers the phone
     and takes down the inquirer’s number or email and basic question. The staff member
     then sends an email to a responder in the section, who will either call back or answer
     the inquiry by email. After a few days of trying this method, the staff could field
     most calls during the designated hour, while reducing the time each caller is on hold.


     Visas
     Embassy Stockholm processes both IVs and NIVs. A large percentage of its 17,000­
     plus NIV adjudications are petition-based visas (16 percent), students (20 percent),
     exchange visitors (25 percent), and third country nationals (21 percent). Treaty trader
     and treaty investor visas consume the most processing time. Both visa units see a
     large number of third country nationals because of Sweden’s relatively open refugee
     and asylum programs. The third country national applicant pool poses particular




20                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



challenges, because it is difficult to establish the identity of many applicants, and
many come from countries of concern. About 80 percent of Stockholm’s IV appli­
cants are third country nationals, and about 10 percent have no legal residence in
Sweden. Swedish authorities can and do grant travel documents to these individuals
based on their verbal claims, without confirming their identities. Thus, IV cases from
Iraq, Iran, Somalia, and Eritrea, in particular, require extra attention from both the
interviewing officer and the anti-fraud unit.

The embassy does a very small number of visa referrals annually and has a visa refer­
ral process in place. However, a recent review of referrals indicated several problems
with processing, and inappropriate designations as either A or B referrals. The prob­
lems included adjudication by an untenured officer, lack of appropriate signatures for
referring and approving officers, lack of scanned referral forms, and justifications that
do not meet the requirements of 9 FAM Appendix K. While there were some systems
problems when the deputy chief of mission attempted to review some visa adjudica­
tions, this difficulty appears to have been overcome.


    RECOMMENDATION 12: Embassy Stockholm should reissue its visa
    referral policy under the Ambassador’s signature and provide training for all
    staff on the requirements and process for making referrals. (Action: Embassy
    Stockholm)


The 9/11 Commission legislation included a requirement to negotiate data shar­
ing agreements with countries that have visa waiver privileges. These agreements
must be concluded by the next visa waiver review in 2012. Both U.S. and Swedish
Government officials have been working on the final wording of a draft Preventing
and Combating Serious Crime agreement, and once the Swedes have reviewed the
text and submitted final comments, the agreement is expected to be ready for signa­
ture. The Homeland Security Presidential Directive 6 agreement on information data
sharing regarding known and suspected terrorists is on hold until the Preventing and
Combating Serious Crime agreement is signed, given the directive’s sensitivity with
the Swedish parliament and the public.

The Visas Viper committee meets regularly under the chairmanship of the consular
chief. Cooperation appears good, and the consular chief checks that all proposed
names are in the system, and if they are not he refers them to the Department for
vetting.




                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   21


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Anti-Fraud
     Embassy Stockholm is a relatively low fraud post, but it has a steady stream of
     difficult cases and a busy anti-fraud unit, due to Sweden’s liberal policies toward
     the identity documents of its diverse population of refugees and asylees. The local
     employee in the anti-fraud unit has developed a level of expertise and established
     contacts that make him a valuable resource – not only for Sweden, but also for other
     posts in the region and for the Foreign Service Institute. To make better use of this
     asset, the consular section has proposed hosting a conference to share best anti-fraud
     practices and to foster cooperation in the region, which has never had such a forum.
     The focus of the proposed conference would be on applicants for H (worker) and L
     (intracompany transfer) visas; however, it also could spur other cooperative anti-fraud
     efforts through follow-on visits by or video conferences with the embassy’s anti-fraud
     staff. The section has proposed conference presenters who could provide information
     to the regional group, and it has requested funding for this purpose from CA.


        RECOMMENDATION 13: The Bureau of Consular Affairs should approve
        Embassy Stockholm’s request for funding to host a regional anti-fraud confer­
        ence. (Action: CA, in coordination with Embassy Stockholm)



     American Citizens Services
     Many of the U.S. citizens residing in Sweden have young children, and the section
     sees several applicants for consular reports of birth abroad (CRBA) each week. Since
     CRBAs are time-consuming and often involve small children, the section sets aside
     appointments for these applicants. This approach works well, especially because
     the scheduling process directs applicants to the embassy’s Web site, where there is
     a checklist of documents needed for the CRBA. As a result, parents usually come
     prepared with everything they need, saving both themselves and the section time and
     preventing the need for repeat visits, which is an important consideration for appli­
     cants who undertake the long and expensive trip to Stockholm from more distant
     parts of this large country.

     The American citizen services section is considering expanding the appointment
     system to include passport applicants and others. Doing so would help clients to
     arrive with all the required documents and would reduce waiting time, especially
     during periods when the section is short-staffed. Implementing an appointment
     system also is likely to cut down on telephone and email queries.

     Informal Recommendation 16: Embassy Stockholm should expand the consular
     appointment system to include all applicants for American citizens services.


22                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Embassy Stockholm uses its Web site and its email list of about 5,500 registered
Americans to distribute warden notices. This method appears to work well for the
few notices the embassy sends out each year. However, the system could be more
effective if there were wardens to reach those people who may not be online, and to
provide feedback on communications.

Informal Recommendation 17: Embassy Stockholm should establish a warden
system for Sweden.

Embassy Stockholm handles a few repatriation and whereabouts cases each year.
Most death cases are routine and involve family members in-country. At present,
there are two Americans in prison in Sweden. Although the prisoners have few
complaints and the prisons are located some distance from Stockholm, the section
visits them regularly. A prisoner exchange treaty is in place. Cooperation with the
host government is good, but sometimes slow.

Sweden is the protecting power for the United States in North Korea, and when­
ever there is an American detained in North Korea the consular section is a key
communications link between the Ministry of Foreign Affairs in Stockholm and the
Department. It attends to this function in a timely and conscientious manner.

Sweden is party to the Hague Convention on Protection of Children and
Co-operation in Respect of Intercountry Adoption and the Hague Abduction
Convention. In practice, however, there are no adoptions of Swedish children by
Americans, unless the parents are related or have strong ties to Sweden. The embassy
is active in supporting requests by left-behind parents of abducted children, and it
responds to welfare and whereabouts queries promptly. The section has good working
relations with Swedish authorities.




                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   23


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





24   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


     SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED




RESOURCE MANAGEMENT


                                       U.S.
                                                  U.S.     Locally                                         Total
                                      Direct-                                                Total
          Agency                               Local-Hire Employed                                        Funding
                                       Hire                                                  Staff
                                                 Staff      Staff                                         FY 2010
                                       Staff
Department – D&CP                          24            5        13                              42       3,650,071
Department - MRV                                         1         2                                3        188,454
Department – ICASS                           3         8.5        33                             44.5      6,048,000
Department – Public
                                               2                   2                 25              9     1,000,800
Diplomacy

Department – Diplomatic
                                               4                   9                24               37    1,416,124
Security

Department – Marine
                                               6                                      1              4       389,661
Security

Department – Representation                                                                                   53,100

Department – OBO                               1                                                     1     1,642,236
Centers for Disease Control
                                               1                                                     1        75,000
and Prevention
Foreign Commercial Service                     1                                      6               7      774,109
Defense Attaché Office                         7                                      3              10      671,905

Department of Homeland
                                                                                                                 Not
Security (Customs & Border                     2                                                     2
                                                                                                            available
Patrol)

Foreign Agricultural Service                                                        2              2         262,570
Totals                                        51              25.5                109          162.5      16,172,030




                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011                      25


              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     MANAGEMENT OPERATIONS

     The management officer arrived in Stockholm less than 3 months before the inspec­
     tion but had already made his mark on embassy operations. He has focused on
     customer service and team building within the section. The OIG team found him
     knowledgeable about the section’s strengths and areas for improvement. He is tack­
     ling each challenge as he encounters it; other embassy sections reported noticeable
     improvement in overall customer service.

     Stockholm has a unique workforce made up of 19 nationalities (including 24 resident
     Americans), all of whom are hired under and subject to Swedish labor law and taxa­
     tion. Sweden’s exceptionally generous leave policy challenges embassy management to
     find creative staffing solutions, particularly during the summer when local employees
     are entitled to six or more weeks of leave. Many of the local-hire Americans have
     security clearances and thus can assist the small, U.S. direct-hire staff in many
     sections. Their assistance helps fill LE staffing gaps, but it also tends to reduce
     employment opportunities for eligible family members of embassy officers,
                                                  The management officer and the commu­
     nity liaison office (CLO) coordinators are actively engaged with the human resources
     (HR) unit to increase family member employment opportunities within the embassy.
     The CLO coordinators also have worked with family members to locate employment
     opportunities on the local economy.

     Facilities operations and some general services units present the management section
     with small challenges. As noted below, the facilities management unit needs training
     and reorganization, as well as the possible elimination of a position. A discussion of
     internal control weaknesses in the general services operation is in the management
     controls section of this report.

     The management section has been at the forefront of creating the most energy-
     efficient embassy possible. The chancery’s heating system was converted to municipal
     steam heat, a cost neutral solution that has significantly reduced the embassy’s
     carbon footprint. The embassy converted several government-owned residences to
     efficient geothermal heating systems, which saves approximately 40 percent per year
     in utility costs; more conversions are planned when funding is available. Likewise,
     there are plans to upgrade windows in government-owned houses to windows with
     higher efficiency ratings. The embassy has an active recycling program and encour­
     ages two-sided printing. The entire embassy is involved in thinking of ways to make
     the embassy even “greener,” and employees have an excellent awareness of green
     initiatives.




26                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Management could devote more energy to emergency planning. The Emergency
Planning Handbook (12 FAH-1) suggests that embassies prepare contingency travel
orders, employee and family member lists, emergency contact systems, etc., which
Embassy Stockholm has not done. A Department-sponsored crisis management exer­
cise took place when the CLO coordinator was on leave and before the new manage­
ment team arrived. The management section should coordinate emergency planning
efforts with the regional security office and the emergency action committee, so that
the entire embassy is aware of the existence and location of emergency information.

Informal Recommendation 18: Embassy Stockholm should review its emergency
planning information and develop emergency resources including evacuation travel
orders and up-to-date employee and family member lists.




FINANCIAL MANAGEMENT
The management officer oversees operations of the embassy’s financial management
unit. The unit provides strong customer service and manages funds in accordance
with Department regulations. Embassy Stockholm’s Class B cashier offers accommo­
dation exchange to allow employees to cash personal checks. Requiring the cashier to
provide accommodation exchange increases both the cashier’s workload and the need
for a cash advance from the U.S. Treasury. Guidance in 4 FAH-3 H-361.2 requires
that the chief of mission issue a written determination to provide accommodation
exchange service, based on specific considerations, such as availability of satisfactory
local commercial banking facilities, automated teller machines, or currency exchange
services. Embassy Stockholm did not have a current chief of mission determination.


    RECOMMENDATION 14: Embassy Stockholm should determine whether
    to maintain accommodation exchange services, based on the factors described
    in the Foreign Affairs Handbook. (Action: Embassy Stockholm)




HUMAN RESOURCES
The three-person HR unit operates in a professional manner and provides excellent
service to the mission. Each employee in the unit is fully engaged with the issues
under his or her purview. Local employee performance evaluations were up-to-date;
the few problems that had existed with late evaluations were resolved with the arrival


                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   27


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


     of the new management officer. The unit updated the LE staff handbook only a
     few months prior to the inspection, and it provides a comprehensive overview of the
     embassy’s employment policies. As noted below, the embassy has an excellent orienta­
     tion program for new LE staff members. (Orientation of U.S. direct-hire employees is
     the responsibility of the community liaison office.)


                     BEST PRACTICE: Local Employee Orientation Program



                     Issue: Most new LE staff members at Embassy Stockholm have no experience
                     working for the U.S. Government and are arriving to work at a leanly-staffed
                     embassy with minimal staff turnover. They need an orientation to their new
                     working environment.
                     Response: The embassy has created an orientation program in which each
                     new local employee is assigned a sponsor, generally an LE staff member from a
                     different section in the embassy. Using a checklist, the sponsor introduces the
                     new employee to every person in the mission, shows him or her key offices, and
                     ensures that the employee has someone to sit with at lunch during their first
                     week at work. In addition, the HR office gives the new employee a schedule of
                     meetings with many sections in the embassy for check-in briefings, including a
                     courtesy call with the deputy chief of mission.
                     Result: New local staff report excellent results from this program. They imme­
                     diately feel welcome in their new work environment, and much of the stress of
                     the first week at a new job is eliminated. Sponsors take their job quite seriously,
                     and all appreciate this excellent introduction to Embassy Stockholm.




     GENERAL SERVICES
     The general services office (GSO) performs most of its responsibilities well; its scores
     for all services were average, compared to other embassies that the OIG team had
     recently inspected. A third-tour American general services officer is the sole U.S.
     direct-hire employee in the office. Morale within the office is good, and LE staff
     members perform effectively as a team. Embassy customers gave slightly lower marks
     to GSO for customer service orientation. The OIG team discussed several ways to
     improve customer communication and expectation management. In common with
     other European embassies, Embassy Stockholm does not provide government-owned
     furniture to embassy employees. This practice, which differs from what employees
     expect based on previous assignments, needs to be clearly explained to incoming
     officers.


28                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



The management officer notes that unfurnished residences are undesirable from
a morale perspective, and the embassy has formally requested permission to join a
pilot program to lease residential furniture through a commercial company. This
proposal is likely to increase costs to the U.S. Government and is under review by the
Department.

The GSO has fully implemented new electronic applications for shipping, procure­
ment, travel, and property management. The embassy also has a blanket purchase
agreement with a local taxi vendor, which allows the embassy to outsource most
motor pool functions, a cost-effective alternative to running a larger motor pool.

The OIG team noted that several of the embassy’s indefinite delivery, indefinite
quantity contracts resulted in selections of single vendors. Although permitted under
the regulations, Federal Acquisition Regulation, part 16.504(c)(1)(i) requires that, to
the maximum extent possible, an embassy should make multiple award selections for
these types of contracts.

Informal Recommendation 19: Embassy Stockholm should make multiple
awards for indefinite delivery, indefinite quantity contracts to the maximum extent
practicable.




HOUSING
The embassy maintains a housing inventory of 18 government-owned properties
and 23 short-term leased properties. Embassy employees rated suitability of housing
slightly above average, compared to other recently inspected embassies. Leased prop­
erties typically are within space and cost standards for Embassy Stockholm’s leasing
rental benchmarks. The embassy notes that a recent surge in housing costs, combined
with an illiquid rental market, has driven up rental costs; accordingly, it is in the
process of submitting new rental benchmarks for review by the Bureau of Overseas
Buildings Operations (OBO).

There are several problematic issues related to management of the embassy’s govern­
ment-owned properties. First, a number of underutilized or excess properties in the
residential property inventory are undesirable for various reasons, including street
noise, awkward space configuration, or excessive distance from the chancery. Second,
the deputy chief of mission’s apartment has suitable representational space, but
family living quarters are small. The embassy is interested in finding a replacement
property for this long-term leased apartment. It has initiated preliminary negotiations
to obtain new apartments on a build-to-lease basis from a local developer, a solution
that could address both issues. The developer has proposed highly energy-efficient



                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   29


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     designs for the apartments and “green” construction methods, which would reduce
     long-term operating costs. Working with a developer during the construction process
     also would allow the embassy to make sure new units meet Department specifica­
     tions, which is particularly important for the deputy chief of mission residence. The
     OIG team believes that this proposal has merit and supports the embassy’s efforts to
     negotiate an agreement that addresses long-term housing needs.




     UNDERUTILIZED REAL PROPERTY – OXENSTIERNSGATAN
     APARTMENTS

     Embassy Stockholm purchased five apartments in 1997 at a cost of $1.15 million at
     current exchange rates. These apartments historically have attracted housing board
     appeals from occupants who complained of excessive street noise and deficiencies
     in apartment layout and size. Currently, two of the apartments have been vacant
     for an extended period, and the embassy does plan not to assign new occupants to
     the apartments of another three employees after their departure in summer 2011.
     According to 15 FAM 261 (5), government-owned quarters generally should not be
     used as transient quarters or kept vacant for longer than 3 months. These housing
     units represent a significant government investment, intended to defray high costs
     of leasing properties. According to estimates provided by the embassy, their market
     value is estimated at $3 million. Sale of the properties would allow the Department
     to put these funds to better use.


        RECOMMENDATION 15: Embassy Stockholm should request permission
        from the Bureau of Overseas Buildings Operations to sell properties X23023,
        X24024, X25025, X26026, and X27027. (Action: Embassy Stockholm, in
        coordination with OBO)




     EXCESS REAL PROPERTY – BROMMA HOUSE
     The embassy retains a government-owned single family house that has been vacant
     for several years. The Department of Agriculture acquired the property in 1958 at
     a cost of $45,000, and it was used as the dedicated residence for the agricultural
     attaché for many years. The embassy first proposed selling the house in 2001, but the
     Department of Agriculture declined to provide authorization. In 2006, the position



30                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



of agricultural attaché was transferred to a neighboring post, and the residence has
been vacant for most of this period. The house, which has an estimated market value
of $1.5 million, has not been occupied for 2 years and is in poor repair. With the
permanent departure of the agricultural attaché from the embassy, it is unlikely to be
occupied any time soon. It also will deteriorate further, the longer it remains unoc­
cupied. Sale of the property would allow the Department to put the government’s
investment to better use.


   RECOMMENDATION 16: Embassy Stockholm should request permission
   from the Bureau of Overseas Buildings Operations to sell property X03003.
   (Action: Embassy Stockholm, in coordination with OBO)




FACILITIES MANAGEMENT
The facilities management operation in Stockholm has long operated without appro­
priately targeted resources. The section is exceedingly top-heavy. It needs to be reor­
ganized, or should eliminate a position to have a more appropriate mix of skill sets
and supervisor-to-supervised ratio. Some of the staffing structure problems are relics
of a time when there was no American facilities manager at the embassy. Since the
first American facilities manager was assigned to Stockholm 10 years ago, a first-time
facilities manager has filled the position during each assignment cycle. The new offi­
cers stay only 2 years, versus the normal 3-year tour for a tenured facilities manager.
At present, the embassy is experiencing a gap in the position that will last more than
a year, and a temporary contractor currently is filling the position. At present, the
senior LE staff holds few regular meetings with unit staff. The previous facilities
manager held regular safety meetings and gave lectures that were well-received by the
section staff, but when he left the safety meetings stopped. The management officer
has scheduled team-building training for the facilities management unit in February
2011.

Despite the number of higher-level supervisors, there are only ad hoc preventive
maintenance schedules, and the unit does little strategic planning. Until the recent
addition of a work order clerk, work was accomplished in a somewhat chaotic
manner. Supervisors appear to have little awareness of projects that are coming down
the road. Workers in the section appear to have good skills and work ethic, but
leadership is lacking. The top-heavy structure reflects poor management practices




                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   31


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED


     and works against efficiency. There are enough positions in the unit to have a robust
     preventive maintenance program and to handle both routine and non-routine work
     orders, but reorganization of both positions and work is necessary to accomplish this
     goal.


        RECOMMENDATION 17: Embassy Stockholm should reorganize the facili­
        ties management section, eliminating or reprogramming at least one of the
        senior positions. The reorganization should include planning and realignment
        of the unit’s workload among the facilities staff. (Action: Embassy Stockholm)




     PREVENTIVE MAINTENANCE
     Preventive maintenance is performed on some equipment. There is no formal preven­
     tive maintenance schedule. The Department’s computerized maintenance manage­
     ment system (Work Orders for Windows) is outdated and not in use for preventive
     maintenance scheduling, nor is anyone at the embassy fully trained to use it. As
     a result, much of the important preventive maintenance work is performed on an
     ad hoc basis, or not at all, which increases the risk of expensive equipment failures.
     Service agreements with contractors cover some of the key preventive maintenance
     issues, such as the generator and elevator maintenance; the maintenance foreman and
     work order clerk write on-the-spot work orders for other needs, such as checking fire
     extinguishers or changing air filters. Developing a preventive maintenance program
     in which all section members have clearly assigned roles would ensure that critical
     maintenance is performed on a regular and timely basis.


        RECOMMENDATION 18: Embassy Stockholm, in coordination with
        the Bureau of Overseas Buildings Operations, should develop a preventive
        maintenance program that includes updating the Work Orders for Windows
        system, training key employees in the section to use it, assigning clear roles
        to all section members, and monitoring the preventive maintenance program.
        (Action: Embassy Stockholm, in coordination with OBO)




32                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



MANAGING MAINTENANCE AND REPAIR PROJECTS
The facilities staff did not appear to have a good understanding of upcoming proj­
ects. For example, a remodel of the consular section to create a privacy booth had
received short shrift, even though senior facilities employees were aware of the issue.
The embassy did not request special funding, nor was this project on the section’s
radar screen. Likewise, when the OIG team asked about an upcoming security
upgrade project, facilities unit personnel were not fully aware that the project existed,
and had no detailed information about when it would begin or what their role might
be in it. Work on government-owned properties (to change out windows, install
geothermal heat, and remodel kitchens and bathrooms) had begun, but there was no
evidence of a strategic plan for completing this work or for the maintenance of these
properties on a long-term basis. The facilities unit operates in a reactive mode; the
OIG team found little evidence of a plan for identifying and prioritizing maintenance
and construction projects.


    RECOMMENDATION 19: Embassy Stockholm should develop a prioritized
    project plan for embassy maintenance and construction projects, aligning
    those projects to request necessary funding and to take advantage of last-
    minute funding opportunities. (Action: Embassy Stockholm)




INFORMATION MANAGEMENT
The OIG team assessed technical and management operating procedures, as well as
the physical security of the information technology spaces of Embassy Stockholm.
Its information management (IM) program currently meets the expectations of the
information technology needs of all users in Embassy Stockholm and provides the
appropriate level of information system security for the embassy. The OIG team
performed a penetration test, a network analysis, and systems cyber security reviews;
it noted no major deficiencies.

The OIG team counseled Embassy Stockholm on issues such as labeling, consular
phone use, power panel labeling, individual development plans, contingency plans,
expired passwords, patches, and file restoration from backup tapes. The embassy
addressed all concerns to the satisfaction of the OIG team; some mitigation activities
remain in progress.




                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   33


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     The IM program is also responsible for switchboard operations, telephone and radio
     management, and classified and unclassified pouch operations. The OIG inspectors
     reviewed these operations and found that the embassy follows the Department’s poli­
     cies and guidelines. (There are no guidelines assigning responsibility for local mail
     handling.) The local mail functions for Embassy Stockholm are performed by the
     motor pool staff, who pick up the mail, screen it for suspicious material, and sort it.

     Embassy Stockholm’s IM officer oversees the information systems and information
     processing centers for the embassy. The section includes, in addition to the IM offi­
     cer, an information program officer and an IM specialist in charge of the classified
     systems.

     There are three American officers, three cleared Americans, eight local employees,
     and a part-time eligible family member supporting Embassy Stockholm’s unclassi­
     fied systems, diplomatic post office, pouch operations, and telephone switchboard.
     Overall, the IM office supports 260 users on the unclassified side. The classified
     network consists of approximately 40 users.




     INFORMATION SECURITY
     The information security section of Embassy Stockholm is adequate. A staffing
     shortage recently resulted in insufficient attention to information system security
     officer duties. The shortage has been resolved and the current staff performs the
     information system security officer duties adequately.

     Embassy Stockholm uses eServices to track the IM work orders. Some users do not
     think it is necessary to fill out the request forms, perhaps because senior embassy
     management has not clearly communicated that the use of eServices by the end user
     is mandatory. Using work orders enables the embassy to track services and verify
     that all customer needs are satisfied and work is being performed in an efficient and
     timely manner. Not logging tickets on the eServices system can result in dropped
     work orders, unresolved problems, and improper allocation of human resources.


         RECOMMENDATION 20: Embassy Stockholm should issue clear guidance
         directing all personnel to use the eServices system when requesting informa­
         tion management support. (Action: Embassy Stockholm)




34                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


     SCHOOLS
     (b)(2)(b)(5)(b)(6)
     Embassy employees relayed concerns (b)(2)(b)(5)(b)(6) to the OIG team, citing issues
     with the school’s curriculum, homework policies, discipline policies, and facilities.
     As is the case with other schools in Scandinavia, (b)(2)(b)(5)(b)(6)                 has
     limited resources to assist special needs students, which is another area of concern.
     The management officer is well aware of parent concerns and is working with the
     school’s director to seek improvements in these areas. (b)(2)(b)(5)(b)(6)
                                                                             This school
     receives high marks from parents, but it does not follow a U.S. curriculum a(b)(2)(b)
                                                                                                               (5)(b)(6)


     The Office of Overseas Schools recently concluded an assessment visit to Stockholm
     and determined that (b)(2)(b)(5)(b)(6)                does not provide an education
     that is reasonably comparable to a school in the United States (b)(2)(b)(5)(b)(6)

                                               The visit also gave the Department an oppor-
     tunity to formally communicate the concerns of embassy management and parents
     to (b)(2)(b)(5)(b)(6)                and to support the embassy’s efforts to engage
     constructively with the school. (b)(2)(b)(5)(b)(6)




     U.S. EMBASSY COMMUNITY ASSOCIATION
     The USECA was struggling for survival until the fall of 2009, when it elected a
     new board. The Office of Commissary and Recreation Affairs worked with the
     board to complete old audits and clear up problems with the association’s finances.
     The association’s finances are now well run and USECA’s operations are profitable,
     although the cleanup of old accounts must be completed before any new services are
     added. The association provides ordering services through the Ramstein Air Base
     commissary in Germany, a vending machine in the consular section, and a small
     video and snack store. The association is solvent and makes enough money to assist
     the CLO with event planning. The current USECA board chair, who has experience
     on the boards of other community associations, has helped to recruit other employees
     to serve on the board. The association employs one family member on a part-time
     basis; however, there was no formal employment agreement in place, so the board is
     regularizing the employee’s contract. In addition, the previous model of having the
     board treasurer serve as the association’s bookkeeper proved to be ineffective, so the
     association now pays a local employee to provide bookkeeping and audit support.


38                        OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                     SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





36   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


     SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



QUALITY OF LIFE


HEALTH UNIT
Two LE staff nurses operate the embassy’s health unit, each working 32 hours per
week. The nurses provide medical support and serve as liaisons between embassy
personnel and the local medical establishment. A local doctor serves as the embassy’s
medical advisor and general practitioner, and he can refer embassy staff and their
families to relevant specialists. This system has worked well in the Swedish medical
environment; however, that environment is changing with the recent development
and expansion of private medicine to supplement Sweden’s over-extended, state run
health system.

Most employees and family members are satisfied with the medical office, which
has taken an active role in health promotion and wellness activities for the embassy
community. The nurses also provide a tour of Stockholm’s major medical facilities for
new employees and family members; they visit the four main hospitals and explain
how to access emergency services in Sweden. This tour is well attended and well
received.




COMMUNITY LIAISON OFFICE
Two CLO coordinators, each working 20 hours, staff an active CLO. They are
concerned with morale and recruiting issues resulting from the inadequacy of local
schools (see school discussion below) and the paucity of employment opportunities
for eligible family members. The long, dark winters also take a toll on employees
and their families. The CLO coordinators have an active winter program, beginning
in November, to help get people out of the house and alleviate some of the winter
doldrums. The program will start with a speaker who recommends coping mecha­
nisms and suggests ways to enjoy the Swedish winter.

The coordinators work well together, respect each other’s strengths, and are a key
component in the embassy’s positive morale. They work closely with the U.S.
Embassy Community Association (USECA) to plan and fund social events for
embassy employees and family members. The coordinators also work with the health
unit to support and publicize community wellness activities.


                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   37


              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     SCHOOLS

     Embassy employees relayed concerns                       to the OIG team, citing issues
     with the school’s curriculum, homework policies, discipline policies, and facilities.
     As is the case with other schools in Scandinavia,                                    has
     limited resources to assist special needs students, which is another area of concern.
     The management officer is well aware of parent concerns and is working with the
     school’s director to seek improvements in these areas.
                                                                            This school
     receives high marks from parents, but it does not follow a U.S. curriculum a


     The Office of Overseas Schools recently concluded an assessment visit to Stockholm
     and determined that                                   does not provide an education
     that is reasonably comparable to a school in the United States

                                               The visit also gave the Department an oppor­
     tunity to formally communicate the concerns of embassy management and parents
     to                                    and to support the embassy’s efforts to engage
     constructively with the school. (b)(2)(b)(5)(b)(6)




     U.S. EMBASSY COMMUNITY ASSOCIATION
     The USECA was struggling for survival until the fall of 2009, when it elected a
     new board. The Office of Commissary and Recreation Affairs worked with the
     board to complete old audits and clear up problems with the association’s finances.
     The association’s finances are now well run and USECA’s operations are profitable,
     although the cleanup of old accounts must be completed before any new services are
     added. The association provides ordering services through the Ramstein Air Base
     commissary in Germany, a vending machine in the consular section, and a small
     video and snack store. The association is solvent and makes enough money to assist
     the CLO with event planning. The current USECA board chair, who has experience
     on the boards of other community associations, has helped to recruit other employees
     to serve on the board. The association employs one family member on a part-time
     basis; however, there was no formal employment agreement in place, so the board is
     regularizing the employee’s contract. In addition, the previous model of having the
     board treasurer serve as the association’s bookkeeper proved to be ineffective, so the
     association now pays a local employee to provide bookkeeping and audit support.


38                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



EQUAL EMPLOYMENT OPPORTUNITY

The embassy’s Equal Employment Opportunity (EEO) counselor is new to the posi­
tion, having taken the Department’s EEO training in September 2010. She is taking
her responsibilities seriously and is working with the management officer and the LE
staff committee to promote EEO awareness. The embassy has posted information on
centrally located bulletin boards and has issued recent EEO announcements.

The new counselor’s performance contrasts with several employees’ reports that EEO
issues raised in 2009 had not been appropriately handled. The OIG team was unable
to determine whether these earlier EEO complaints were handled in accordance with
regulations. However, the team determined that the current counselor understands
the scope and importance of her responsibilities, and can be expected to deal with
any future EEO complaints appropriately.

Local employees appreciate what they perceive as significant, recent improvements in
EEO sensitivity. The embassy is actively looking for a new EEO liaison for the LE
staff. There has been no EEO training at the embassy recently, but the regional HR
officer in Frankfurt was scheduled to provide EEO training for LE staff during her
visit to the embassy in December 2010.




                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   39


              SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





40   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




MANAGEMENT CONTROLS


Embassy Stockholm has adequate safeguards in place to protect against waste, fraud,
and mismanagement of government resources in most areas. On July 23, 2010, the
embassy submitted its annual Chief of Mission certification of management controls
and identified no reportable conditions. The OIG team identified internal controls
issues pertaining to procurement and motor vehicle operations, both of which are
addressed below.




MOTOR VEHICLE RECORD KEEPING
The embassy is not in compliance with motor vehicle fleet records requirements.
Employees who drive on official business are not filling out daily vehicle use records
(OF-108) to document and identify whether trips are for official business or other
authorized use, as required by 14 FAH-1 H-814.1-1 a. The motor pool unit also is
not preparing the monthly fuel/oil consumption record (DS-1775) to reconcile fuel
usage and mileage driven, as required by 14 FAH-1 H-814.2 b. Finally, the embassy
does not conduct or keep records on systematic preventive maintenance on the
official fleet. The motor pool supervisor recently returned from training and is fairly
new on the job. However, responsibility for maintaining information required for
vehicle records rests primarily with motor vehicle operators. In the absence of internal
controls over motor vehicles, vehicles could be misused.


    RECOMMENDATION 21: Embassy Stockholm should issue a manage­
    ment notice requiring drivers of embassy vehicles to complete daily vehicle
    use records and monthly fuel fuel/oil consumption records, as outlined in
    Department regulations. (Action: Embassy Stockholm)




OFFICIAL VEHICLE POLICY
The embassy’s official vehicle policy is outdated. The last policy was issued on July
22, 2008, and does not contain authorization for home-to-office transportation and
self-driving policies, among other subjects. The Chief of Mission is required to review


                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   41


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


     and annually republish a country-wide official vehicle policy in accordance with 14
     FAM 432.5. This policy must provide procedures for business and other authorized
     use, instructions for safe vehicle operations, and uniform treatment of employees.
     Clearly defining the procedures for official vehicle use prevents misuse of government
     vehicles.


         RECOMMENDATION 22: Embassy Stockholm should issue a comprehen­
         sive, country-wide official motor vehicle policy. (Action: Embassy Stockholm)





     PROCUREMENT AND CONTRACTING
          The embassy procures goods and services to an extent typical of a mid-size
     embassy, totaling about $2.1 million in FY 2010. With the introduction of an elec­
     tronic procurement system, it has migrated to digital storage of most procurement
     documents. In some cases, the embassy is not retaining documentation required
     by the Federal Acquisition Regulations and Department of State Acquisition
     Regulations. For example, some files did not contain information on the names of
     bidders invited to participate in solicitations, contractor bids, proposal receipt dates
     and times, or sole source justifications where required. As a result, the embassy could
     not document that it had sought full and open competition for these procurement
     actions, as required by 14 FAH-2 H-225 a. The OIG team’s review of a sample of
     eight procurement files totaling $275,280 found only two files that had evidence of
     full and open competition or sole source justifications. Without documentation that
     acquisitions were competed fully and openly, the embassy cannot be assured that it is
     obtaining the best prices for goods and services.


         RECOMMENDATION 23: Embassy Stockholm should develop and imple­
         ment a checklist of procurement documentation to be retained in electronic
         procurement form, consistent with Department regulations. (Action: Embassy
         Stockholm)




42                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




RECOMMENDATIONS


RECOMMENDATION 1: Embassy Stockholm should systematically improve its
use of the Contact 7 software by appointing an individual to take charge of the data­
base; investigating whether to upgrade the software to Contact 8; consulting with the
program’s creator in Frankfurt about the database’s capabilities; involving a variety
of staff in designing the fields; and providing staff training on database use. (Action:
Embassy Stockholm)


RECOMMENDATION 2: Embassy Stockholm should install access to the database
on most staff work stations, although the ability to make changes to records should
remain limited to ensure consistency. (Action: Embassy Stockholm)


RECOMMENDATION 3: Embassy Stockholm, in coordination with the Bureau
of European and Eurasian Affairs and the Bureau of Human Resources, should
combine the economic and political sections, while maintaining the current staff­
ing balance between economic- and political-coned officers in the combined section.
(Action: Embassy Stockholm, in coordination with EUR and DGHR)


RECOMMENDATION 4: Embassy Stockholm should require that the politi­
cal and economic sections collaborate on bringing their files into compliance with
Department regulations on records management. (Action: Embassy Stockholm)


RECOMMENDATION 5: Embassy Stockholm should develop and implement a
plan to broaden participation in the embassy speaker program and encourage staff
members to incorporate speaking events in their official travel. (Action: Embassy
Stockholm)


RECOMMENDATION 6: Embassy Stockholm should bring its social media sites
into compliance with the new Foreign Affairs manual subsection on social media.
(Action: Embassy Stockholm)


RECOMMENDATION 7: Embassy Stockholm should require that nominating
officers or other relevant section staff attend the briefings and debriefings for partici­
pants in the International Visitor Leadership Program and the Voluntary Visitor
Program. (Action: Embassy Stockholm)


                 OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   43


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     RECOMMENDATION 8: Embassy Stockholm should develop and implement a
     plan to encourage more widespread nominations for the Voluntary Visitor Program.
     (Action: Embassy Stockholm)


     RECOMMENDATION 9: Embassy Stockholm should create the appropriate fields
     in its Contact 7 database and use these fields to record information on all exchange
     program alumni regarding their participation in U.S. Government exchange
     programs. (Action: Embassy Stockholm)


     RECOMMENDATION 10: Embassy Stockholm should notify the Department
     that language training is not essential for position number 30-032004 and request
     that it not be language designated. (Action: Embassy Stockholm)


     RECOMMENDATION 11: Embassy Stockholm should propose, and the Bureau
     of Overseas Buildings Operations should approve and fund, the construction of a
     privacy booth in the consular waiting room. (Action: Embassy Stockholm, in coordi­
     nation with OBO)


     RECOMMENDATION 12: Embassy Stockholm should reissue its visa referral
     policy under the Ambassador’s signature and provide training for all staff on the
     requirements and process for making referrals. (Action: Embassy Stockholm)


     RECOMMENDATION 13: The Bureau of Consular Affairs should approve
     Embassy Stockholm’s request for funding to host a regional anti-fraud conference.
     (Action: CA, in coordination with Embassy Stockholm)


     RECOMMENDATION 14: Embassy Stockholm should determine whether to
     maintain accommodation exchange services, based on the factors described in the
     Foreign Affairs Handbook. (Action: Embassy Stockholm)


     RECOMMENDATION 15: Embassy Stockholm should request permission from
     the Bureau of Overseas Buildings Operations to sell properties X23023, X24024,
     X25025, X26026, and X27027. (Action: Embassy Stockholm, in coordination with
     OBO)


     RECOMMENDATION 16: Embassy Stockholm should request permission from
     the Bureau of Overseas Buildings Operations to sell property X03003. (Action:
     Embassy Stockholm, in coordination with OBO)



44                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



RECOMMENDATION 17: Embassy Stockholm should reorganize the facilities
management section, eliminating or reprogramming at least one of the senior posi­
tions. The reorganization should include planning and realignment of the unit’s
workload among the facilities staff. (Action: Embassy Stockholm)


RECOMMENDATION 18: Embassy Stockholm, in coordination with the Bureau
of Overseas Buildings Operations, should develop a preventive maintenance program
that includes updating the Work Orders for Windows system, training key employees
in the section to use it, assigning clear roles to all section members, and monitoring
the preventive maintenance program. (Action: Embassy Stockholm, in coordination
with OBO)


RECOMMENDATION 19: Embassy Stockholm should develop a prioritized proj­
ect plan for embassy maintenance and construction projects, aligning those projects
to request necessary funding and to take advantage of last-minute funding opportu­
nities. (Action: Embassy Stockholm)


RECOMMENDATION 20: Embassy Stockholm should issue clear guidance direct­
ing all personnel to use the eServices system when requesting information manage­
ment support. (Action: Embassy Stockholm)


RECOMMENDATION 21: Embassy Stockholm should issue a management
notice requiring drivers of embassy vehicles to complete daily vehicle use records and
monthly fuel fuel/oil consumption records, as outlined in Department regulations.
(Action: Embassy Stockholm)


RECOMMENDATION 22: Embassy Stockholm should issue a comprehensive,
country-wide official motor vehicle policy. (Action: Embassy Stockholm)


RECOMMENDATION 23: Embassy Stockholm should develop and implement
a checklist of procurement documentation to be retained in electronic procurement
form, consistent with Department regulations. (Action: Embassy Stockholm)




                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   45


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





46   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




INFORMAL RECOMMENDATIONS


Informal recommendations cover operational matters not requiring action by orga­
nizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.

Informal Recommendation 1: Embassy Stockholm should, after the first road
show, conduct a cost-benefit review to assess whether and to what degree this activity
imposed trade-offs with advancing other, broad national interests; to consider what
tasking changes would take maximum advantage of the embassy’s own expertise and
capacities; and to assess other means of maximizing the impact of subsequent events.

Informal Recommendation 2: Embassy Stockholm should request resources for an
additional local employee position in its Mission Strategic and Resource Plan.

Informal Recommendation 3: Embassy Stockholm should provide appropriate
training for the office management specialist in the economic section.

Informal Recommendation 4: Embassy Stockholm should develop a formal media
policy and circulate it periodically to embassy staff.

Informal Recommendation 5: Embassy Stockholm should include on its SharePoint
site information from the public affairs section, including daily news summaries,
press guidance, outreach presentations, and other briefing materials.

Informal Recommendation 6: Embassy Stockholm should direct all sections and
agencies to contribute items to the embassy Web site and social media sites and cross­
link the sites among themselves.

Informal Recommendation 7: Embassy Stockholm should include interests and
other public diplomacy information in the Contact 7 database to make it more useful
for information outreach.

Informal Recommendation 8: Embassy Stockholm should look at the position
descriptions of the Information Resource Center assistant/Web master and the
administrative/grants assistant with a view towards giving these staff members addi­
tional responsibilities.




                OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   47


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Informal Recommendation 9: Embassy Stockholm should develop a spreadsheet to
     record staff training in the public affairs section.

     Informal Recommendation 10: Embassy Stockholm should engage local staff
     in planning their vacation leave well in advance of the summer season to ensure
     adequate coverage for the consular section.

     Informal Recommendation 11: Embassy Stockholm should survey the training and
     skills of consular locally employed staff and support cross training to ensure the flex­
     ibility needed when there are gaps or workload demands in one of the units.

     Informal Recommendation 12: Embassy Stockholm should direct the consular
     section to hold regularly scheduled meetings.

     Informal Recommendation 13: Embassy Stockholm should establish a regular
     schedule of meetings between the consular chief and the deputy chief of mission.

     Informal Recommendation 14: Embassy Stockholm should require that the
     consular chief take on an appropriate role to fulfill his duties with regard to
     International Cooperative Administrative Support Services.

     Informal Recommendation 15: Embassy Stockholm should install air condition­
     ing in the consular section and ensure that it has good ventilation before the next
     summer season.

     Informal Recommendation 16: Embassy Stockholm should expand the consular
     appointment system to include all applicants for American citizens services.

     Informal Recommendation 17: Embassy Stockholm should establish a warden
     system for Sweden.

     Informal Recommendation 18: Embassy Stockholm should review its emergency
     planning information and develop emergency resources including evacuation travel
     orders and up-to-date employee and family member lists.

     Informal Recommendation 19: Embassy Stockholm should make multiple
     awards for indefinite delivery, indefinite quantity contracts to the maximum extent
     practicable.

     Informal Recommendation 20: Embassy Stockholm should create a service level
     agreement between the information management and public affairs sections defining
     duties regarding the dedicated Internet network.

     Informal Recommendation 21: (b)(2)(b)(5)



48                   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




PRINCIPAL OFFICIALS


                                                                  Name                                   Arrival Date

Ambassador                                                        Matthew W. Barzun                            08/09
Deputy Chief of Mission                                           William R. Stewart                           05/10

Chiefs of Sections:

Consular                                                          Martin B. Tatuch                             06/09
Economic                                                          Laura J. Kirkconnell                         06/09
Management                                                        William H. Boyle                             07/10
Political                                                         Marc D. Koehler                              08/08
Public Affairs                                                    Christopher G. Dunnett                       06/09
Regional Security                                                 Michael D. Reimer                            09/08

Other Agencies:

Centers for Disease Control                                       Jonathan T. Weber                            06/07
     and Prevention
Department of Defense                                              Col. Bruce H. Acker                         06/07
Department of Homeland Security                                    Rodolfo E. Maeda                            03/09
Foreign Commercial Service                                         Frank G. Carrico                            08/08




                    OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011                  49


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





50   OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011


     SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED




ABBREVIATIONS


CA                    Bureau of Consular Affairs
CLO                   community liaison officer
CRBA                  consular report of birth abroad
DIN                   dedicated Internet network
EEO                   Equal Employment Opportunity
ELO                   entry-level officer
ESTH                  environment, science, technology, and health
FAH                   Foreign Affairs Handbook
GSO                   general services office
HR                    human resources
ICASS                 international Cooperative Administrative Support
                      Services
IM                    information management
IRC                   Information resource center
IV                    immigrant visa
IVLP                  International Visitor Leadership Program
LE                    locally employed
MSRP                  Mission Strategic and Resource Plan
NIV                   nonimmigrant visa
OIG                   Office of Inspector General
OMS                   Office management specialist
SAGA                  Swedish-American Green Alliance
USECA                 U.S. Embassy Community Association
VVP                   Voluntary Visitor Program




        OIG Report No. ISP-I-11-30A - Inspection of Embassy Stockholm, Sweden - March 2011   51


        SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

 of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED

